APPLICATION AND
SOLICITATION
DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

8.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards

9.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured

13.90%
APR for Balance Transfers

Visa Platinum
6.50% or 8.50% Introductory APR until balance subject to Introductory APR
is paid off, based on your creditworthiness.
After that, your APR will be 8.90% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards
9.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
13.90%

APR for Cash Advances

Visa Platinum
8.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards
9.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
13.90%

Penalty APR and When it Applies

18.00%
This APR may be applied to your account if you:
- Make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for
this reason, the Penalty APR will apply until you make six consecutive
minimum payments when due.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00900362-MXC10-C-1-102319 (MXC101-E)

Fees
Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
$10.00 or 2.00% of the amount of each balance transfer, whichever is
greater (Maximum Fee: $75.00)
$10.00 or 2.00% of the amount of each cash advance, whichever is greater
(Maximum Fee: $75.00)
1.00% of each transaction in U.S. dollars
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Platinum: The Introductory APR for balance transfers will apply to
transactions posted to your account during the first 30 days following the opening of your account. Any existing balances
on Jax Federal Credit Union loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Loss of Introductory APR: We may end your Introductory APR for balance transfers and apply the Penalty APR if you
are 60 days late in making a payment.
Application of Penalty APR: Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making
a payment.
Effective Date: The information about the costs of the card described in this application is accurate as of: April 1, 2021. This
information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Rewards and Visa Secured are secured credit cards. Credit
extended under this credit card account is secured by various personal property and money including, but not
limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for
this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee: Your late payment fee will be based on the outstanding balance owed as listed below, if you are three
or more days late in making a payment:
Outstanding Balance Owed
Up to:
$500.00 or less
$10.00 or the amount of the required minimum payment, whichever is less;
$500.01 - $2,000.00
$20.00 or the amount of the required minimum payment, whichever is less;
$2,000.01 or greater
$25.00 or the amount of the required minimum payment, whichever is less;
Balance Transfer Fee (Finance Charge): $10.00 or 2.00% of the amount of each balance transfer, whichever is greater,
however, the fee will never exceed $75.00. However, this fee is waived during the promotional period listed above.
Cash Advance Fee (Finance Charge): $10.00 or 2.00% of the amount of each cash advance, whichever is greater,
however, the fee will never exceed $75.00.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less.
Returned Convenience Check Fee: $25.00 or the amount of the returned convenience check, whichever is less.
Card Replacement Fee: $20.00.
Document Copy Fee: $1.00 per page.
Emergency Card Replacement Fee: $250.00.
Pay-by-Phone Fee: $9.95.
Rush Fee: $20.00 overnight.
Statement Copy Fee: $1.00 per page.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00900362-MXC10-C-1-102319 (MXC101-E)

